  SURVEY OF INSPECTION AND EVALUATION UNITS
IN THE FEDERAL INSPECTOR GENERAL COMMUNITY




                     February
                       2004




       INSPECTION AND EVALUATION COMMITTEE


  PRESIDENT'S COUNCIL ON INTEGRITY AND EFFICIENCY
   EXECUTIVE COUNCIL ON INTEGRITY AND EFFICIENCY
                           TABLE OF CONTENTS


EXECUTIVE SUMMARY                                                                1


PURPOSE                                                                          2


BACKGROUND                                                                       2


METHODOLOGY                                                                      3


SURVEY FINDINGS                                                                  4


      I.	     Profile of Inspection and Evaluation Units                         4


              A.	   Number of I&E Units has Significantly Increased              4

              B.	   Unit Size and Structure Varies                               4

              C.	   I&E Units Perform a Variety of Functions                     5

              D.	   I&E Processes Show Some Consistencies Among Units            6

              E.	   Staffs are Diverse and Offer Broad Expertise                 7

              F.	   Most Units Offer Training Opportunities                      8


      II.	    Recommendations for Enhancing the

              Inspection and Evaluation Community                                9


              A.	   Respondents Offer Suggestions for Improving I&E Work         9

              B.	   Ideas for Crosscutting Work Merit Attention                 10

              C.	   Helpful Product Suggestions Could Provide Valuable Tools

                    for the OIG Community                                       10


APPENDICES	                                                                     12


              A.	   Summary Profile of OIG Inspection and Evaluation Units      12

              B.	   Titles of Some Recent I&E Reports

                    and Notable Accomplishments                                 15





                                    Report on PCIE/ECIE I&E Survey 2003
                                                                                      i
                                    EXECUTIVE SUMMARY


T
      he results of a 2003 survey of inspection and evaluation units in federal Offices of Inspector General
      reveal that the OIG inspection and evaluation community is growing and addressing a number of
      government-wide issues as well as agency specific problems and concerns. The Inspections and
Evaluation Roundtable conducted the survey for the Inspection and Evaluation Committee of the President’s
Council on Integrity and Efficiency (PCIE) and the Executive Council on Integrity and Efficiency (ECIE). It
updates similar reviews completed in 1995 and 1999.

The 2003 survey was sent to all 57 federal OIGs. The survey responses identified 26 OIGs that had or were
establishing distinct inspection and evaluation units. This publication offers a concise analysis of those responses,
providing profiles of the 26 units, including their personnel, budgets, and the types of work and issues they
address.

         OIG INSPECTION AND EVALUATION UNITS                                  1999                       2003

         Number of Units                                                        15                         26
         Budget Over $ 2 million                                                 4                          9
         Budget Over $ 1 million                                                 9                         17
         More than 25 employees                                                  6                          6
         More than 10 employees                                                  9                         17

The survey showed that new units are being created, others enlarged, and still others melded with other OIG
units. These changes offer new and refurbished tools and greater flexibility to the IGs—the flexibility to be able
to constantly adjust to the needs of managers, demands of budget, and evolving organizational missions. The
Inspectors General have combined a multitude of disciplines and expertise in these units to review a broad
range of programs and operations within their agencies and to conduct interagency reviews.

The survey also serves to illustrate continuing crosscutting issues of concern to multiple OIGs and provides
ideas for future work or internal management initiatives.
    •	   There was significant interest in doing work on crosscutting issues, security concerns being foremost among
         those issues.
    •	   Government contracting and related issues was another major area of concern and a suggested topic for studies
         of crosscutting issues.
    •	   Training opportunities for I&E staff were also an area of interest. Many believe there should be increased
         cooperation to develop multiagency efforts to train I&E personnel.
    •	   Survey respondents offered interesting ideas for developing “helpful” products for use by all I&E units and
         others, such as additional best-practice guides on common issues (similar to ones already developed for purchase
         and travel cards), or training materials to improve evaluation skills.

Finally, this report will also serve to provide other interested parties—especially new inspectors general and
those interested in establishing evaluation units—with information about the value that inspection and evaluation
units bring to the OIGs’ mission.

                                         Report on PCIE/ECIE I&E Survey 2003
                                                                                                                            1
                 PURPOSE                                 To accomplish their missions, the councils have also
                                                         developed policies, standards, and approaches that
                                                         have helped build a well-trained and highly skilled
                                                         OIG workforce. In addition, the PCIE and ECIE
The purpose of this survey report is to provide a brief  conduct interagency audit, inspection, and
but comprehensive analysis of the information gleaned    investigative projects aimed at promoting economy,
from the 2003 survey of inspection and evaluation units  efficiency, and effectiveness in federal programs and
in federal Offices of Inspector General (OIGs). It offersoperations. Because the PCIE and ECIE are made
a current profile of 26 of these units presently         up of members from many federal agencies, these
conducting inspections and/or evaluations. The survey    projects can effectively address crosscutting or
covers the make-up and function of these units, and      government-wide issues of fraud, waste, and abuse.
highlights some of their recent work. Information from
the survey can be used to (1) illustrate crosscutting INSPECTION AND EVALUATION COMMITTEE
issues of concern to different OIGs, (2) provide ideas
for future OIG work or internal OIG management            The Inspection and Evaluation Committee
initiatives, and (3) educate others—especially new            contributes to the OIG community as well as
Inspectors General and those interested in                       the federal government as a whole by
establishing evaluation units—about the value                        helping to improve (1) the management
of having inspection and evaluation units to                            of federal programs, (2) the practice
aid the OIGs in accomplishing their                                         of inspections and evaluations by
mission.                                                                        sharing effective practices and
                                                                                   insights, and (3) the
                                                                                       analytic and
                                                                                          administrative skills
                                                                                          of OIG inspectors
B    ACKGROUND                                                                        and evaluators by
                                                                                   providing training on a
                                                                               variety of relevant topics. The
PRESIDENT’S COUNCIL ON                                                     Committee     is supported by a very
                                                                        active Inspections and Evaluation
INTEGRITY AND EFFICIENCY AND
                                                                     Roundtable, which serves as an adjunct
EXECUTIVE COUNCIL ON INTEGRITY AND                               to the Committee. The Roundtable,
EFFICIENCY                                                   created in 1993, is generally comprised of the
                                                          directors or heads of inspection and evaluation
The President’s Council on Integrity and Efficiency units within the federal Offices of Inspector General.
(PCIE), primarily composed of the Presidentially Its purpose is to promote the professional
appointed IGs, and the Executive Council on Integrity development of employees in those units, improve
and Efficiency (ECIE), mainly composed of IGs the practice of evaluation and analysis, and provide
appointed by agency heads, were established by positive contributions to the OIG community.
Executive Order 12805, May 11, 1992, to address
integrity, economy, and effectiveness issues that
transcend individual government agencies, and to
increase the professionalism and effectiveness of OIG
personnel throughout the government.



PCIE                                     February 2004                                    ECIE
                                                                                                            2
INSPECTION AND EVALUATION UNIT SURVEY
                                                                        METHODOLOGY
Surveys of federal inspection and evaluation units have
been conducted twice before, in 1995 and 1999, to
provide a broad overview of this segment of the OIG
community. Data has been collected on characteristics
                                                              The survey team sent questionnaires to all 57 PCIE/
such as personnel, budget, longevity, output,
                                                              ECIE inspectors general in January 2003 and
organizational structure, placement within each OIG
                                                              received responses from 26 OIG offices that had—
structure, and types of work completed. In the fall of
                                                              or were in the process of forming—distinct
2002, because of a number of recent changes in the
                                                              inspection and evaluation units. Fourteen additional
community, the PCIE Inspection and Evaluation
                                                              OIGs responded to the survey noting that they do
Committee asked the Inspection and Evaluation
                                                              not have a distinct I&E unit but occasionally conduct
Roundtable to administer a new survey, to provide a
                                                              “evaluations” as part of their work. This survey
current profile of federal I&E units.
                                                              report focuses primarily on the 26 units that appear
                                                              to be working as distinct inspection and/or
The focus of and data collected for each of the three
                                                              evaluation units within Offices of Inspector General.
surveys have differed slightly; thus not all data collected
                                                              (A list of the additional 14 OIGs reporting that they
for the three is comparable, making broad historical          conduct evaluations is provided in note 2 of
comparisons impossible. However, the general thrust           Appendix A.)
of the survey has remained the same—to assess the
current state of federal OIG inspection and evaluation
units.

In 1995 and 1999 the questionnaires were only sent
to members of the Roundtable. The 2003 survey was
sent to all 57 federal OIGs, including members of both
the PCIE and ECIE. The survey was conducted by
staff of the Office of Evaluation and Inspections in the
Department of Health and Human Services Office of
Inspector General, working with members of the
Department of Commerce Office of Inspector
General.


     “The survey team sent

     questionnaires to all 57

     PCIE/ECIE inspectors

     general . . .”





                                         Report on PCIE/ECIE I&E Survey 2003
                                                                                                                      3
                                      SURVEY FINDINGS


I.      PROFILE OF INSPECTION AND EVALUATION UNITS

A.      Number of I&E Units has Significantly Increased

Twenty-six I&E units were identified in the 2003 survey, compared with 15 in 1999 and 19 in 1995. Two
agencies—the Departments of Commerce and State—report having two distinct evaluation groups within their
IG offices and the Department of Defense has three. The 2003 survey also revealed three significant changes
in the I&E community: I&E units previously attached to the Department of Treasury and the Federal Emergency
Management Agency have become part of the I&E unit in the new Department of Homeland Security; the
Corporation for National and Community Service’s OIG established a new evaluation unit in 2003; and Amtrak,
the Environmental Protection Agency, and the Department of Education have all established new I&E units
since the 1999 survey was administered.

Of the 26 distinct I&E units, 18 are a separate office within their Office of Inspector General, and 8 exist within
another OIG unit (such as an Office of Audit) or are combined with another OIG entity (such as a management
and policy office).


B.      Unit Size and Structure Varies

As in the two previous surveys, data show that the I&E units fall into two general demographic categories—
large and well-established organizations, and smaller units in existence for less than a decade. Six units have
staffs of at least 25 full-time equivalents (FTEs) and budgets of more than $2.5 million a year, and all of these
have existed for a decade or more. The Department of Justice Evaluation and Inspections Division, for
example, was established in 1989 and has a budget of $2.8 million and a staff of 28 FTEs.


                                28
              28
                                       DOE
                       DOJ
     37         CIA                                                  HHS            136
                       STATE
                                             DVA



            39
                                           46
                             FTEs of the Six Largest OIG I&E Units in 2003

PCIE                                     February 2004                                      ECIE
                                                                                                               4
                         SIX LARGEST OIG I&E UNITS IN 2003


   Department / Agency                                   Unit                        FY 2003 Budget
                                              Office of
 Department of Health and Human Services      Evaluation and Inspections          $13.2 million

                                              Office of
 Department of Veterans Affairs               Healthcare Inspections              $3.7 million


 Department of State                          Office of Inspections               $6.7 million


 Central Intelligence Agency                  Inspection Staff                    N/A


                                              Office of Inspections and
 Department of Energy                                                             $2.91 million
                                              Special Inquiries

 Department of Justice                        Evaluation and
                                                                                  $2.8 million
                                              Inspections Division




HHS OIG continues to have the largest I&E unit, with 136 FTEs and a budget of $13.2 million in FY 2003. In
terms of staff, the HHS I&E unit is nearly three times the size of the next largest unit; its counterpart in the
Department of Veterans Affairs employs 46 FTEs. Both Defense and Homeland Security are currently building
large inspection units. Staffing numbers in the remaining evaluation units tend to range from 5 to 23 FTEs, with
budgets less than $2.2 million.

C.      I&E Units Perform A Variety of Functions

While some units report conducting both inspections and evaluations, most reported performing one or the
other with more indicating evaluations. Furthermore distinctions between inspections and evaluations vary
among OIGs. Overall, however, an evaluation tends to be a more in-depth review of a major program,
function, or activity, whereas an inspection is generally a more concise review of a specific office, event, issue,
or problem. A significant number of OIG respondents noted that they also produce quick reaction reports
(10), crosscutting issue reports (8), best practice reports (8), and unannounced inspections (6).

In addition to conducting inspections and evaluations, a number of the responding units reported performing a
variety of functions in addition to conducting reviews: at least 6 are responsible for preparing the IG’s semiannual
reports to the Congress, and 5 provide technical support and consulting services for the other offices in their
OIG. Other duties mentioned included responding to OIG hotline referrals and conducting legislative, regulatory,
and/or departmental policy reviews or other clearances (such as responding to GAO reports).




                                        Report on PCIE/ECIE I&E Survey 2003
                                                                                                                       5
Some duties that are unique to specific I&E units include:
     1.	 IT security evaluations required by the Federal Information Security Management Act (Commerce’s
         Office of Systems Evaluation);
     2. 	 Compliance follow-up reports (both Peace Corps and State’s Office of Security and Intelligence
          Oversight);
     3. 	 Peer reviews of an OIG (Postal Service); and
     4. 	 Combined assessments, bringing together the work of auditors, investigators, and evaluators for
          comprehensive reviews (Veterans Affairs, Environmental Protection Agency, and Homeland
          Security).

D.       I&E Processes Show Some Consistencies Among Units

Work Initiation

Most I&E units’ projects are self-initiated, developed as a result of internal analysis and/or the OIG’s planning
process; 14 respondents cited these methods as their single-most important source of ideas for new reviews.
Requests from OIG senior management and from departmental senior management were the second and third
source of ideas, respectively; Congressional interest was the fourth; followed by regular or rotational coverage
of agency programs or offices, hotline allegations, and referrals from OIG audit and investigative offices.
These results were similar to those from the 1999 survey.

Work Plan Dissemination

All but 2 of the 26 I&E units said they prepare a formal schedule or plan of work specifying particular agencies
or issues for review. Nearly all such schedules are part of an overall OIG work plan. “Unannounced” inspections,
by their nature, are not explicitly cited in work plans.

Eighteen of the units reported that they disseminate their work plans outside the OIG.

Work Duration of Inspections/Evaluations

Respondents were asked to indicate how long it takes to conduct an inspection or evaluation, depending on
how they classified their own work. Inspections, generally speaking, took significantly less time to complete
than evaluations—on average, 7.5 weeks for an inspection versus 26.6 weeks for an evaluation.

Report Distribution

All I&E units said they routinely distribute their reports to department and agency program managers, and all
but 2 indicated they normally send reports to the head of the department or agency. Only 14 of the 26 units
regularly send their reports to Congress, 8 to OMB, and 5 to GAO. In the previous survey, about half of the
units stated that they routinely sent reports to OMB and GAO. The decreased distribution may be related to
an increase in OIGs’ internet presence.




 PCIE	                                     February 2004                                     ECIE
                                                                                                                6
Internet Presence

About half of all units use e-mail and/or their web site to disseminate reports available to the public, media, and
other government agencies or Congress and notify stakeholders when new reports are available. HHS, for
example, uses a regular “listserve” mailing list to announce by e-mail when a new final report has been released
and loaded onto its web site. By using the internet to distribute reports, the costs and resources needed to
produce hard copies are reduced. At least 16 units, however, continue to distribute paper copies of new
reports to key personnel.

Within overall OIG web sites, 10 I&E units (roughly 38 percent) have a separate link to information specifically
about their office.

Operations/Procedures Manuals

Twenty I&E units said they use an operations or procedures manual in their work, roughly equaling the same
percentage that did so in 1999. Four of these units (HHS, EPA, CIA, and State) reported that their manuals
are available on-line.




                                OIG Inspection Units
                             A multitude of talent, disciplines, and expertise

                      Auditors                                         Scientists
                                            Lawyers
                                                                  Engineers
                    Doctors/Nurses
                                                         Contracting Officers

                                                       IT/Security Specialists

                                    Program/Management Analysts
                                                                            Mathematicians
                       International Trade Specialists
                                                                                 Economists
                         Foreign Service Officers                               Statisticians




E.      Staffs are Diverse and Offer Broad Expertise

Because inspection and evaluation work frequently covers a range of issues, requiring expertise in a variety of
disciplines and input from several staff with the requisite knowledge, I&E staff tend to be hired at higher than
entry levels. The majority of staff in most I&E units are GS-13 or above. Only units at HHS and the Department
of Labor had a higher percentage of staff at GS-12 or below. More than half of the 26 I&E units were headed
by a member of the senior executive service (SES).



                                       Report on PCIE/ECIE I&E Survey 2003
                                                                                                                      7
Most I&E unit staff are in the GS-0343/program analyst job series category—nearly 85 percent of I&E units
have at least some staff in this job series. About half have staff in the miscellaneous administrative job series
(GS-0301), and a little less than one-third have at least some staff in the auditor job series (GS-0511).

As would be expected in organizations that deal with highly diverse subject matter, many I&E units employ
staff in more specialized job series. For example, the State Department has a large percentage of foreign
service officers, the Department of Veterans Affairs’ I&E unit is mostly made up of health systems specialists,
and the Department of Energy’s unit is made up of general inspection and investigative staff (GS-1801).
Several other I&E units employ IT specialists, mathematicians, statisticians, contract or procurement officers,
economists, engineers, environmental scientists, labor and industrial relations specialists, and lawyers. At least
7 units have, at minimum, one lawyer on staff; 4 have engineers and IT specialists; 3 each identified security
professionals and contract specialists; and 2 reported having several CPAs.


F.      Most Units Offer Training Opportunities

In addition to opportunities to share knowledge among the
various professional disciplines represented among I&E staff,
the units also provide a variety of training opportunities. Half
of the 26 units report offering their staff training in general
evaluation methods and processes, and 9 respondents note
that they provide training in more specific evaluation methods
such as interviewing, survey design, and analytical techniques.
Training in writing skills is also provided by at least 10 I&E
units. Auditing and auditing standards, computer skills,
management and/or supervision, and procurement constitute
additional training provided by at least 5 I&E units. One
respondent also noted providing interactive training on subjects
such as team building.

Training is provided through a number of sources. At least 10
offices reported offering some training in-house. CIA and HHS, for example, each provide a significant amount
of in-house training on conducting evaluations, and HHS’ I&E unit has been a leader in providing evaluation
writing skills courses to other OIGs. The outside vendor most commonly mentioned for training is the Inspectors
General Auditor Training Institute (IGATI), which provides courses on evaluation, presentations, writing, and
auditing. Another source is the Department of Agriculture’s Graduate School; at least 7 respondents use this
resource for training in information security, management skills, procurement, and computer-related, or
information technology courses. Another 4 I&E units used the Evaluators’ Institute to provide training in
analysis techniques and general evaluation issues.




 PCIE                                      February 2004                                      ECIE
                                                                                                                8
II.	 RECOMMENDATIONSFOR ENHANCING THE INSPECTION AND EVALUATION
     COMMUNITY

A.	      Respondents Offer Suggestions for Improving I&E Work

Increasing and improving training opportunities was mentioned most often as a way to improve inspections
work in the OIG community. Some suggested expanded use of IGnet, the PCIE/ECIE web site, to identify
good training opportunities. Still others thought that video training, in such areas as IT security, would be
helpful.

Many survey respondents also expressed an interest in increased interaction with their counterparts in other
agencies as a means to communicate throughout the community the procedures and policies that most quickly
and efficiently produce the desired results. The Department of Defense suggested an exchange program,
allowing inspectors and evaluators to be detailed to different departments to learn and share methods.

Three I&E units, NASA, Justice, and EEOC, stressed the value of using an interdisciplinary approach when
dealing with complex evaluation issues—that is, using staff with expertise in different disciplines to identify
systemic problems and develop solutions. A few units thought that staff from the program being evaluated
could be used as part of an OIG evaluation team to provide such relevant expertise.

Other suggestions for improving evaluation work include the following:

•	 Use the internet and organizational web site to conduct data gathering, especially for surveys.

•	 Put more emphasis on the use of evaluation methods for ensuring sound methodology in the work.

•	 Provide adequate resources for training and skills development, with increased emphasis on program
   analysis skills for inspectors/evaluators as well as organizational and leadership skills for senior IG
   representatives.

•	 Create a positive work environment, including good equipment, flexible hours, telecommuting, an effective
   reward system, and career development opportunities.

•	 Increase use of data mining. (Data mining is the process of extracting previously unknown, valid, and
   actionable information from large databases and then using the information to make critical decisions.)

•	 Create a model policies and procedures manual for inspection and evaluation units that goes beyond the
   PCIE Quality Standards for Inspections.

•	 Include benchmark and best practices information for program areas common to most government agencies,
   such as procurement, on IGnet.




                                      Report on PCIE/ECIE I&E Survey 2003
                                                                                                                  9
B.	       Ideas for Crosscutting Work Merit Attention

Security and procurement/contracting were the two most frequently mentioned topics suitable for crosscutting
projects among the various I&E units. As might be expected in the wake of the September 11, 2001, terrorist
attacks and other such threats, concerns about many aspects of security and emergency preparedness are
prominent among the I&E community. Security issues, techniques, and best practices were mentioned by more
than half of the respondents as being an important issue for multiagency study. As one respondent stated, “The
physical security of government facilities and personnel has become a significant crosscutting issue. A joint
project in this area might have significant impact government-wide.”

Security issues considered suitable for study include
      •	 physical security of government buildings and facilities,
      •	 counterterrorism measures,
      •	 the security of biological agents or other materials that have potential use in weapons of mass destruction,
      •	 coordination of visa and immigration concerns, and
      •	 emergency preparedness.

Government contracting and related issues was a second important concern. Respondents expressed interest
in contract administration and procurement practices, identifying opportunities for outsourcing agency operations,
analyzing the efficiency and effectiveness of using contractors, and determining whether small businesses are
benefiting from federal contract dollars.

Other issues mentioned for possible crosscutting studies include purchase/
travel card reviews, career development and management training, assessing
the possible impact of telework/telecommuting, and sharing administrative
functions among different agencies.

C.	       Helpful Product Suggestions Could Provide
          Valuable Tools for the OIG Community

Survey respondents provided many interesting ideas for products to help
staff of the inspections and evaluation community. Several units expressed
interest in “best practice” guides on procurement, leveraging and maximizing
I&E resources (since many I&E units are relatively small), and other topics.
As one respondent stated, “I hope this practice matures into a viable network
resource that evaluation units could access to obtain best practices information
in an efficient and reliable manner.”

Product ideas included the following:

          •	 Continue developing guides for conducting reviews of government-wide

             issues, such as the two already produced by the I&E Roundtable—A

             Practical Guide for Reviewing Government Purchase Card Programs

             and Common Problems and Uncommon Solutions: How OIGs are

             Helping Improve Federal Travel Card Programs.



 PCIE	                                        February 2004                                      ECIE
                                                                                                                  10
•	 Create additional online clearinghouse bibliographies or listings of OIG inspection, evaluation, and
   audit reports by subject matter (such as the On-Line Directory of Purchase and Travel Card
   Reports available at IGnet);

•	 Publish crosscutting or summary findings reports based on OIG work on current event topics such
   as counterterrrorism, homeland security, intelligence, and agencies’ preparations for emergencies,
   or conduct interagency analyses of these topics to identify systemic issues.

•	 Develop a model “memorandum of understanding” containing the basic framework for conducting
   government-wide or joint I&E reviews (there have been instances in the past when getting all
   parties to agree to the ground rules took longer than the actual evaluation).

•	 For relevant OIGs, monitor the employment of healthcare professionals who may be listed on the
   HHS Exclusion list, National Practitioner Data Bank, or Federation of State Licensing Board
   Disciplinary files.

•	 Finalize the recently initiated effort to identify the knowledge, skills, and abilities deemed critical by
   agencies for the selection and growth of employees in I&E units (core competencies); continue to
   work toward a unified training approach (content and delivery) for I&E professionals; and develop
   a recommended “curriculum” of courses that includes basic core courses of instruction, advanced
   courses, and master courses.

•	 Develop critiques of inspection/evaluation methodologies, as well as data and evaluation results, to
   identify best practices and flaws in methodology and evaluation results and to provide strategies
   and techniques to correct or preclude the flaws.

•	 Conduct seminars on lessons learned from reviews of various crosscutting or government-wide
   issues, focusing on aspects of the individual review that are applicable to many departments and
   that reviewers should be watchful for when conducting future inspections/evaluations.

•	 Publish standardized templates for inspection and evaluation projects and reports.

•	 Develop guidelines and best practices for issuing video reports.




                               Report on PCIE/ECIE I&E Survey 2003
                                                                                                                11
                              APPENDIX A: SUMMARY PROFILE OF OIG INSPECTION AND EVALUATION UNITS

Department                     Title of Unit(s)               Title of Unit Head      Reports       Location within     Reports Issued:   Annual budget:       FTEs:
                                                                                      to:           OIG (date estab.)   2001              2001                 2001
                                                                                                                        2002              2002                 2002
                                                                                                                        2003              2003                 2003

Amtrak                         Inspections and Evaluations    Chief, I&E              IG            Separate            0                 $.65 million         2
                                                                                                    (8/99)              0                 $1.3 million         4
                                                                                                                        3                 $1.6 million         5


Central Intelligence Agency    Inspection Staff               AIG for Inspections     IG            Separate            11                N/A                  37
                                                                                                    (2/91)              12                N/A                  37
                                                                                                                        11                N/A                  37


Department of Commerce (1)     Office of Inspections and      AIG for Inspections     IG            Separate            10                $1.6 million         16
                               Program Evaluations            and Program                           (1981)              12                $1.9 million         17
                                                              Evaluations                                               10-12             $1.9 million         17

Department of Commerce (2)     Office of Systems Evaluation   AIG for Systems         IG            Separate            7                 $1.3 million         11
                                                              Evaluation                            (1994)              8                 $1.5 million         11
                                                                                                                        6                 $1.5 million         11

Corporation for National       Evaluation Section             AIG for Evaluation      DIG for       Separate            N/A               N/A                  N/A
and Community Service                                                                 OEI           (3/03)              N/A               N/A                  N/A
                                                                                                                        N/A               $1.5 million         4

Defense Intelligence Agency    Inspections                    AIG for Inspections     IG            Separate            10                $1.54 million        13
                                                                                                    (1991)              15                $2.1 million         17
                                                                                                                        12                $2.06 million        22

Department of Defense (1)      Office of Inspections and      Director, Inspections   DIG for       Combined with       N/A               N/A                  N/A
                               Evaluations Directorate        and Evaluations         Inspections   Policy              N/A               N/A                  N/A
                                                                                      and Policy    (est. 2003)         N/A               N/A                  15

Department of Defense (2)      Office of Deputy IG for        DIG for Intelligence    IG            Separate (1996)     12                $2.0 million         28
                               Intelligence                                                                             11                $2.1 million         28
                                                                                                                        14                $2.2 million         23


Department of Defense (3)      Investigative Policy and       Director,               DIG for       Combined with       10                N/A                  10
                               Oversight                      Investigative Policy    Inspections   Policy (1982)       6                 N/A                  18
                                                              and Oversight           and Policy                        2                 $1.1 million         11

Department of Education        Evaluation, Inspection and     AIG                     DIG           Combined with       8                 $.81 million         9
                               Management Services                                                  Budget, ADP, and    12                $1.03 million        10
                                                                                                    Mgt. Services       12                $1.01 million        9




Report on PCIE/ECIE I&E Survey 2003                                                    12                                                                  February 2004
Department of Energy        Office of Inspections and Special   AIG for Inspections     Principal   Separate            28                 $3.04 million       31
                            Inquiries                           and Special Inquiries   DIG         (10/77)             22                 $3.07 million       29
                                                                                                                        24                 $2.91 million       28


Environmental Protection    Office of Program Evaluation        AIG                     IG          Separate            N/A                $2.6 million        17
Agency                                                                                              (2001)              10                 $2.1 million        15
                                                                                                                        15                 $1.7 million        15


Equal Employment            Audit, Inspection and               DIG                     IG          Combined with       3                  $.15 million       1.5
Opportunity Commission      Investigation Program                                                   other OIG s         6                  $.29 million       2.5
                                                                                                                        6                  $.26 million       2.5

Federal Deposit Insurance   Corporate Evaluation Directorate    N/A                     Deputy      Within Audit        13                 N/A                11
Corporation                                                                             AIG                             5                                     9
                                                                                                                        7                                     8

Department of Health and    Office of Evaluation and            DIG                     IG          Separate            68                 $15 million        169
Human Services              Inspections                                                             (4/85)              70                 $14.8 million      155
                                                                                                                        80                 $13.2 million      136

Department of Homeland      Inspections, Evaluations and        AIG for I, E&SR         IG, DIG     Separate            N/A                N/A                N/A
Security                    Special Reviews Division                                                (3/03)              N/A
                                                                                                                        2

Department of Justice       Evaluation and Inspections          AIG for E & I           DIG         Separate            11                 $2.3 million       24
                            Division                                                                (4/89)              9                  $2.6 million       28
                                                                                                                        12                 $2.8 million       28


Department of Labor         National Audit and Evaluations      Director                AIG for     Within Audit        17                 N/A                10
                            Office                                                      Audit                           11                 N/A                10
                                                                                                                        12                 $1.1 million       16

NASA                        Office of Inspections and           AIG                     IG          Separate            29                 $2.31 million      19
                            Assessments                                                             (1995); combined    38                 $2.2 million       18
                                                                                                    with Audit (4/03)   8 (through 4/03)   $2.08 million      16


National Reconnaissance     Inspections Staff                   AIG for Inspections     DIG/IG      Separate            0                  N/A                5
Office                                                                                              (8/01)              11                 N/A                11
                                                                                                                        12                 N/A                13


Peace Corps                 Evaluation and Inspections          AIG for E&I             DIG         Separate            10                 N/A                4
                                                                                                    (1989)              12                 N/A                4
                                                                                                                        8                  N/A                5

U.S. Postal Service         Audit Operations and Quick          Director                AIG for     Combined            0                  N/A                0
                            Response                                                    Audit       (10/01)             9                  N/A                3
                                                                                                                        5                  N/A                3

Report on PCIE/ECIE I&E Survey 2003                                                      13                                                                February 2004
Small Business                     Inspection and Evaluation            AIG for I&E              DIG           Separate                 2                       $.50 million              4
Administration                     Division                                                                    (1993)                   3                       $.58 million              5
                                                                                                                                        5                       $.74 million              6.5


Department of State (1)            Office of Inspect ions               AIG for Inspections      IG            Separate                 30                      $5.7 million              39
                                                                                                               (1987)                   51                      $7.2 million              39
                                                                                                                                        50                      $6.7 million              39

Department of State (2)            Office of Security and               DAIG for Security        AIG for       Within S&IO              37                      $2.8 million              12
                                   Intelligence Oversight /             and Intelligence         S&IO                                   45                      $2.7 million              12
                                   Inspections Division                 Oversight                                                       37                      $2.4 million              12


Department of                      Office of Healthcare Inspections     AIG                      Deputy IG     Separate                 48                      $3.6 million              32
Veterans Affairs                                                                                               (6/92)                   71                      $3.0 million              48
                                                                                                                                        58                      $3.7 million              46


ABBREVIATIONS:
AIG – assistant inspector general
DIG – deputy inspector general
E&I – evaluation and inspection
IG – inspector general
I&E – inspection and evaluation
N/A – Material was either not available (for instance, budget information cannot be separated from larger OIG budget), or material was not provided by the agency for security reasons.
S&IO – Security and Intelligence Oversight

NOTES:

     �•  Units formerly attached to the Federal Emergency Management Agency and Department of the Treasury evaluation units are now part of the 

         Depart ment of Homeland Security OIG’s I&E unit.


     �•  OIGs that responded to the survey but do not appear to have stand-alone evaluation units are not included in this analysis. They are the Corporation for
         Public Broadcasting, Farm Credit Administration, Federal Co mmunication Commission, Federal Labor Relations Authority, Federal Maritime
         Commission, Federal Reserve Board, Government Printing Office, Interior Department, International Trade Commission, National Endowment for the
         Arts, National Labor Relations Board, Pension Benefit Guaranty Corporation, Social Security Administration, and the Department of Transportation.

     �•  Agencies that do not have an OIG evaluation unit and did not send in a survey are the Agency for International Development, Agriculture Department,
         Appalachian Regional Commission, Consumer Product Safety Commission, Federal Election Commission, General Services Administration, National
         Archives and Records Administration, National Credit Union Administration, National Science Foundation, Railroad Retirement Board, Securities &
         Exchange Commission, Smithsonian Institution, and the Treasury IG for Tax Administration.




Report on PCIE/ECIE I&E Survey 2003                                                               14                                                                              February 2004
                       APPENDIX B: TITLES OF SOME RECENT I&E REPORTS AND NOTABLE ACCOMPLISHMENTS

Department                  Recent Report Titles                                                              Other Results/Accomplishments


Amtrak                      Evaluation of Billing Process for Reimbursable Projects
                                                                                                              Led and facilitated a 2-year project to ensure train conductors are remitting all
                            Evaluation of Ft. Worth Refurbishment Project                                     monies generated from on-train ticket sales.

                            Evaluation of Compliance with NTSB Recommendations                                Assisted in a major evaluation/audit/investigation of the $500 million construction
                                                                                                              project to electrify the track between New Haven and Boston to allow high-speed
                            Evaluation of Conductor Non Remittances                                           operation (on-going).

Central Intelligence        Inspection Report of Exploitation of Technical Tools                              N/A
Agency
                            Inspection Report of the Agency’s Budget Formulation and Execution Programs

                            Inspection Report of the Agency’s Counter Intelligence/ Counter Espionage
                            Programs

                            Inspection Report of the Foreign Broadcast Information Service

Department of Commerce      There Are Lessons to Be Learned from the October 1999 Fire and PCB Accident       Department’s Emergency Preparedness and Physical Security – OIPE
Office of Inspections and   in the Herbert C. Hoover Building                                                 conducted a complex and comprehensive review at 27 Department of Commerce
Program Evaluations                                                                                           facilities, including multiple headquarters operations/buildings in Washington,
                            Improvements Are Needed to Better Enforce Dual-Use Export Control Laws            D.C. Completed shortly after the Sept. 11, 2001, terrorists attacks, the report
                                                                                                              highlighted what needed to be done to prepare for future emergencies. (Team
                            National Marine Fisheries Service Should Take a Number of Actions to Strengthen   received PCIE award.)
                            Fisheries Enforcement
                                                                                                              Commerce’s Efforts to Enforce Export Controls – OIPE undertook a broad
                            The Commercial Service Needs to Improve Management of Its Operations in           review of Commerce’s domestic and international efforts to identify and help
                            Turkey                                                                            prosecute violators of U.S. export control laws and regulations. We looked at
                                                                                                              management of investigations and interagency cooperative efforts, handling of
                                                                                                              firearms, and a broad range of enforcement operations and management oversight.
                                                                                                              This is the first effort by OIG to look at enforcement results. Commerce also
                                                                                                              worked with State, DOD, CIA, Energy, and Treasury OIGs to review interagency
                                                                                                              enforcement efforts.

                                                                                                              Department’s Administrative Services – During this review of administrative
                                                                                                              services, we found a major weakness in the way the Department makes awards to
                                                                                                              employees for special achievements. Our recommendations to correct the systemic
                                                                                                              problem were far reaching and got the immediate attention of the CFO who
                                                                                                              directed that the problem be fixed.




Report on PCIE/ECIE I&E Survey 2003                                                          15                                                                             February 2004
Department of Commerce   Additional Senior Management Attention Needed to Strengthen USPTO’s               OSE devoted a large share of its resources to information security reviews in the
Office of Systems        Information Security Program                                                      past year to meet Federal Information Security Management Act (FISMA)
Evaluation                                                                                                 reporting requirements. Accomplishments include:
                         Improvements Made in CAMS [Commerce Administrative Management System]
                         Contract Management but Additional Actions Needed                                 �    Getting Commerce to continue to report information security as a material
                                                                                                                weakness and to focus on meaningful certification and accreditation of
                         Data Capture System 2000 Needs Acquisition and Management Improvements                 systems.
                         (Census Bureau)                                                                   �    Getting the U.S. Patent and Trademark Office's top management to give
                                                                                                                information technology high priority and additional resources. USPTO
                         NPOESS [National Polar Orbiting Environmental Satellite System] Acquisition            completely revamped its information security program, funded five new
                         Well Planned, but Life-Cycle Cost Estimates for Critical Sensors Are Overstated        information security positions, and agreed to identify information security as
                                                                                                                a material weakness in its FY 2002 Accountability Report.
                                                                                                           �    Getting the top management of the National Institute of Standards and
                                                                                                                Technology to give information technology high priority and attention,
                                                                                                                leading to significant improvements in its information security program, and
                                                                                                                getting NIST to assign a CIO position and organization reporting to the
                                                                                                                director or deputy director, with strengthened authority and appropriate
                                                                                                                responsibilities. Previously this was a collateral duty of a lab director.

Defense Intelligence     DIA Regulatory and Statutory Compliance Evaluation                                Command Climate Assessment of Joint Intelligence Task Force – Combating
Agency                                                                                                     Terrorism. Notable because it identified and measured specific leadership and
                         Asset Validation Program Inspection                                               management deficiencies within the newly developed high profile organization.
                                                                                                           Recommendations for improvement were immediately acted on and instituted.
                         Defense Intelligence Senior-Level (DISL) Selection Process Inquiry                Timely and emphatic responsiveness resulted in observable and beneficial impact.

                         Evaluation of Agency Management Control Program                                   Evaluations of Disaster Preparedness and Pre-Deployment Processes.
                                                                                                           Notable because they assessed the agency’s ability and readiness to respond to
                         Pre-Deployment Process Evaluation (during deployment activity in support of       disasters and unconventional threats while gauging the agency’s simultaneous
                         Operation Enduring Freedom)                                                       capacity to sustain contingency intelligence support at both the national and
                                                                                                           theater levels. The resulting observations and recommendations were critically
                                                                                                           relevant to defense and intelligence transformation initiatives.

                                                                                                           Evaluation of Agency Management Control Program. Notable because it
                                                                                                           brought strategic emphasis to DIA’s approach to management controls at a pivotal
                                                                                                           time of change within the agency’s financial management structure. It also
                                                                                                           highlighted the necessity for sufficient rigor in process and practice to ensure
                                                                                                           credibility and validity regarding the agency’s statement of assurance.

Department of Defense    Coalition Intelligence Disclosure Policy for the Global War on Terrorism          DoD Fire and Emergency Services Program. This evaluation was conducted to
                                                                                                           determine the adequacy and effectiveness of the DoD Fire and Emergency
                         Effect of the Raytheon Defense Business Acquisitions on Pension Plans and DOD-    Services Program. The report discussed how shortfalls for staffing and apparatus
                         funded Pension Assets                                                             could adversely impact firefighter safety and installation missions.

                         Summary Report on Homeland Defense, Chemical and Biological Defense, and          DoD Explosives Safety Program Oversight. The evaluation was conducted to
                         Other Matters Related to Counterterrorist Military Operations                     determine whether policies, procedures, regulations, and organizational structures
                                                                                                           for management of DoD munitions and explosives safety supported management
                         Interagency Review of Federal Automated Export Licensing Systems                  of efficient and effective safety programs. The report discussed program
                                                                                                           weaknesses associated with inadequate planning and oversight and the need to
                                                                                                           restructure the DoD oversight board so it will become more effective in
                                                                                                           identifying and minimizing risks associated with explosives safety hazards.



Report on PCIE/ECIE I&E Survey 2003                                                      16                                                                             February 2004
                                                                                                           Policies and Practices of the Defense Organizations Employing Criminal
                                                                                                           Investigators with Respect to Control Over Firearms. The purpose of the
                                                                                                           study was to identify possible best practices regarding the control over firearms
                                                                                                           within six DoD criminal investigative agencies. The report explained how some
                                                                                                           DoD components need to improve their firearms accountability and loss reporting
                                                                                                           policies and practices.

                                                                                                           Intelligence Support to Personnel Recovery Operations. N/A

Department of Education   Review of the Office of Student Financial Assistance Performance Plan            Review of the Department of Education’s Annual Plan 2002-2003 Reveals
                                                                                                           Strengths and Areas for Improvement – This was a timely evaluation of the
                          Review of Contracting Officer’s Representative Training and Risk Level           Department’s Annual Plan providing recommendations for improvement prior to
                          Designations                                                                     the publication of a new plan in 2003.

                          Review of Graduation Rates for Less Than Two -Year Postsecondary Institutions    Results of the 2002 Department of Education Safety and Security
                                                                                                           Survey – This report provided the Department with a concise summary of
                                                                                                           safety and security issues to be addressed in its facilities nationwide.

                                                                                                           A Practical Guide for Reviewing Government Purchase Card Programs –
                                                                                                           Published in cooperation with the Department of Commerce OIG, this PCIE/ECIE
                                                                                                           reference guide provided sample methods and resources developed during our
                                                                                                           review of the Department of Education’s internal controls over the use of purchase
                                                                                                           cards. (Best practices from other OIG reviews were also included.)


Department of Energy      Inspection of Explosives Safety at Selected Department of Energy Sites           Our most notable achievements for the past year deal with the role the Office of
                                                                                                           Inspections plays with regard to oversight of Department of Energy (DOE)
                          Inspection of the Licensing of Trade Secrets by Sandia National Laboratories     security and safety. This includes the following examples:

                          Inspection of Firearms Internal Controls at Los Alamos National Laboratory       �    In our classified report “ Inspection of Department of Energy Fresh
                                                                                                                Pursuit Policies and Practices,” we identified that fresh pursuit policies
                          Inspection of Nuclear Safety at the Ashtabula Environmental Management Project        were not being consistently followed at the four sites reviewed. As a result,
                                                                                                                the Department reviewed the fresh pursuit policies and practices at all the
                                                                                                                National Laboratories. The inspection findings and recommendations
                                                                                                                assisted DOE in improving the preparedness of its protective forces against
                                                                                                                outside attacks.

                                                                                                           �    Our report “ Inspection of the Licensing of Trade Secrets by Sandia
                                                                                                                National Laboratory” identified that since 1995 Sandia issued trade secret
                                                                                                                licenses to 11 private companies for information/data owned by the
                                                                                                                Department without the Department’s knowledge or approval. Sandia’s
                                                                                                                trade secret licensing activities could have jeopardized national security by
                                                                                                                releasing technologies without review for potential weapons applications.

                                                                                                           �    Our report “ Inspection of the Accountability and Control of Sealed
                                                                                                                Radioactive Sources at Selected Department of Energy Sites” identified
                                                                                                                that DOE needed to take additional actions to assure that sealed radioactive
                                                                                                                sources were properly controlled, inventoried, and leak-tested in accordance
                                                                                                                with applicable federal rules and local site procedures. We also noted that
                                                                                                                DOE had not issued specific guidelines to ensure there were viable and cost-
                                                                                                                effective dispositio n paths for surplus sealed radioactive sources.




Report on PCIE/ECIE I&E Survey 2003                                                        17                                                                          February 2004
Environmental Protection   Air: Open Market Trading Program for Air            Open Market Trading Program for Air Emissions Needs Strengthening — The evaluation received
Agency                     Emissions Needs Strengthening                       considerable attention from the press. However, perhaps the most noteworthy recognition of the team’s long-
                                                                               term accomplishments came from EPA’s Deputy Assistant Administrator for Air and Radiation. In his
                           Federal Facility Cleanups: EPA Region 10 Needs      September 26, 2002, written agency comments, he noted that the OIG’s report would help EPA strengthen the
                           to Improve Oversight of Remediation Activities of   OMT program, help states develop effective trading programs, and “help the Nation meet its air quality goals.”
                           the Hanford Superfund 100-K Area                    Implementation of the OIG team’s recommendations for safeguards governing the design, operation,
                                                                               enforcement, and oversight of OMT programs will minimize the risk of open market trading of invalid and
                           R&D: Design for Objective 8.4 Could be Improved     questionable emissions credits in the future, and help to ensure that OMT programs contribute to - - and do not
                           by Reorienting Focus on Outcomes                    detract from - - improved environmental quality and human health.

                           A Compendium of Federal Environmental               Federal Facility Cleanups: EPA Region 10 Needs to Improve Oversight of Remediation Activities of the
                           Programs                                            Hanford Superfund 100-K Area — The Hanford Superfund site, at a size of 586 square miles, has been
                                                                               identified as the largest environmental cleanup project in the world. The team reviewed a tremendous volume of
                                                                               data and numerous reports on sampling results of groundwater data, environmental risk assessment reports, and
                                                                               EPA records on cleanup decisions and actions at the Hanford Superfund site. The results obtained indicated that,
                                                                               in the area under review, the Department of Energy had an inadequate groundwater monitoring and sampling
                                                                               network. A new system was needed in order to ensure that pollutants from the Superfund site were not entering
                                                                               the Columbia River. Last, because of the size, magnitude, and characteristics of the Hanford Superfund site,
                                                                               issues related to its cleanup are sensitive and complex. Therefore, we took extra efforts to ensure that the work
                                                                               was conducted in a transparent way. The agency accepted the findings and generally accepted the
                                                                               recommendations.

                                                                               Observations on EPA’s Plans for Implementing Brownfields Performance Measures — Our contributions
                                                                               have resulted in Agency activities and progress in developing new performance measures for the Brownfields
                                                                               clean up program, Agency requests for ongoing assistance from the OIG in these efforts, and awarding of contract
                                                                               funds to help improve the performance measures. We observed that the existing Brownfields performance
                                                                               measures do not indicate EPA’s progress in reducing or controlling the risk to human health and the environment
                                                                               despite the fact that the Agency’s strategic plan and the Government Performance and Results Act require this.
                                                                               The Agency agreed with our observations and has been actively involved and committed since then to reviewing
                                                                               and evaluating new performance measures, including those the OIG recommended. These activities have
                                                                               involved EPA staff across the nation, OIG staff, and have contributed to helping the Agency obtain needed
                                                                               resources to develop meaningful performance measures for the high -profile Brownfields program.

Equal Employment           Reducing Infrastructure Costs Through Increased     Reducing Infrastructure Costs Through Increased Telework — The project is notable because it is forward
Opportunity Commission     Telework                                            thinking proactive work which resulted in providing options for savings in real estate rental costs, which is 11
                                                                               percent of the Agency’s very tight budget. We assessed four field offices; consulted with telework experts from
                           Assessment of the Implementation of the Federal     government and private industry; employed various data collection methods including focus group meetings; and
                           Personnel/Payroll System                            developed a cost model. The report received high marks from GSA, OMB and the National Academy of Public
                                                                               Administration.
                           Evaluation of Government Performance & Results
                           Act Reporting                                       Assessment of the Implementation of the Federal Personnel/Payroll System — Our monitoring of the
                                                                               implementation of two new agency systems provided real time feedback to the Offices of Chief Financial Officer,
                           Independent Assessment of EEOC’s Compliance         Human Resources, and Information Technology. Information technology management presents a challenge to the
                           with the Government Information Security Act        Agency. We followed the critical steps, asked questions, provided observations and concluded that the first year
                                                                               of operations was successful.

                                                                               Independent Assessment of EEOC’s Compliance with Gov’t Information Security Reform Act — As a
                                                                               result of this work two critical weaknesses were identified regarding computer information security. These were
                                                                               the absence of an Agency security training program and the need to conduct physical security assessments of
                                                                               EEOC field offices.




Report on PCIE/ECIE I&E Survey 2003                                                       18                                                                              February 2004
Federal Deposit         Joint Evaluation of the Federal Financial        Joint Evaluation of the Federal Financial Institutions Examinations Council (FFIEC)– This evaluation was
Insurance Corporation   Institutions Examinations Council                notable because it was a collaborative effort with the Office of Inspector General of the Department of the
                                                                         Treasury (Treasury) and the Board of Governors of the Federal Reserve System (FRB). The FFIEC is a formal
                        Evaluation of Physical Security for the FDIC’s   interagency body consisting of five financial regulatory agencies and is empowered to prescribe uniform
                        Washington, D.C. Area Facilities                 principles, standards, and report forms for the federal examination of financial institutions by its member agencies.
                                                                         The member agencies consist of the FRB, the FDIC, the National Credit Union Administration (NCUA), the
                        Evaluation of FDIC’s Corporate Readiness Plan    Office of the Comptroller of the Currency (OCC), and the Office of Thrift Supervision (OTS).

                        The New Financial Environment Project            Evaluations of Physical Security for the FDIC’s Washington, D.C.-Area Facilities and Field Sites — Largely
                                                                         in light of the events of September 11, 2001, we identified an emerging issue that the FDIC needed to address: the
                                                                         security of the FDIC physical and human resources. The Corporation devoted considerable attention to these
                                                                         issues since the tragic events of that day and continues to do so. We completed work regarding these issues at
                                                                         both the Washington, D.C. area facilities and regional and field office locations and issued two reports conveying
                                                                         our results.

                                                                         Evaluation of the FDIC’s Corporate Readiness Plan — This Plan is the Corporation’s contingency plan for
                                                                         responding to a series of institution failures that would exceed the FDIC’s capacity to address with its own
                                                                         resources. We reviewed key plan elements, assumptions, and deliverables. We concluded that the Plan was
                                                                         reasonable and provided sufficient flexibility for the FDIC to handle a wide range of institution failures without
                                                                         causing significant disruption to other aspects of the Corporation’s mission.


Department of Health    Medicare Maintenance Payments for Capped         Report on Medicare payments for maintenance associated with capped rental equipment, which took up the issue
and Human Services      Rental Equipment                                 of ensuring economy and efficiency in one aspect of the Medicare program

                        Recruiting Foster Parents                        Report on Medicare payments for hospital outpatient departments compared to ambulatory surgical centers –
                                                                         economy and efficiency of the Medicare program
                        State and Local Bioterrorism Preparedness
                                                                         Reports related to the National Pharmaceutical Stockpile Preparedness – bioterrorism
                        Payment for Procedures in Outpatient
                        Departments and Ambulatory Surgical Centers

Department of           N/A – just formed                                N/A
Homeland Security




Report on PCIE/ECIE I&E Survey 2003                                                  19                                                                                February 2004
Department of Justice   The Immigration and Naturalization Service’s          The Evaluation and Inspections Division’s most notable achievements for the past year have been its reports on
                        Removal of Aliens Issued Final Orders                 subjects related to the September 11, 2001, terrorist attacks. In the immediate aftermath of September 11, the
                                                                              Evaluation and Inspections Division initiated and completed five follow-up reviews on critical immigration topics
                        Follow-Up Review on the INS’s Efforts to Track        affecting national security. The reviews provided the Attorney General and Congress with important information
                        Foreign Students in the United States through the     about continuing vulnerabilities.
                        Student and Exchange Visitor Information System
                                                                              Our evaluators participated in a joint project along with the OIG’s attorneys and investigators to examine the
                        The Bureau of Prisons’ (BOP) Drug Interdiction        Immigration and Naturalization Service’s (INS) contacts with two September 11 terrorists. As part of this project
                        Activities                                            (report issued May 2002), the evaluators assessed the INS’s old and new systems for tracking foreign students
                                                                              studying in the United States. This assessment, which was the basis for two congressional hearings, alerted the
                        Review of the Office of International Affairs’ Role   Attorney General and Congress of progress and problems in revamping the INS’s student and exchange visitor
                        in the International Extradition of Fugitives         program. The Evaluatio n and Inspections Division issued a follow-up report in March 2003 that again highlighted
                                                                              continuing problems with the INS’s student database and program.

                                                                              In furtherance of our responsibilities under the USA Patriot Act of 2001, the OIG’s evaluators, attorneys, and
                                                                              investigators initiated a joint review of the treatment of September 11 detainees held by the Department of Justice
                                                                              in two facilities – the Passaic County Jail in Paterson, New Jersey, and the BOP’s Metropolitan Detention Center
                                                                              in Brooklyn, New York. In this review, we examined three primary issues: Detainees’ ability to obtain legal
                                                                              counsel, the government’s timing for issuing criminal or administrative charges, and conditions of detention
                                                                              experienced by the detainees, including allegations of physical and verbal abuse, restrictions on visitation, medical
                                                                              care, duration of detention, confinement policies, and housing conditions. As part of this review, we also examined
                                                                              pre- and post-September 11 policies and procedures concerning detention, deportation, immigration bonds,
                                                                              immigration hearings, and administrative and criminal charging.

Department of Labor     - Evaluation of the Department of Labor’s             At the request of the Department, the OIG evaluated the DOL’s motor vehicle fleet program. We found that the
                        Purchase Card Program                                 motor vehicle fleet could be used more efficiently and the DOL could save $2.5 million annually by eliminating
                        - Evaluation of the Department of Labor’s Travel      underutilized motor vehicles from its motor vehicle fleet.
                        Card Program
                        - Evaluation of the Department of Labor’s             The OIG evaluated the DOL’s travel card program, which we found was not administered consistently throughout
                        Telework Program                                      the Department. The DOL agreed with our recommendations to strengthen the program and decrease travel card
                        - Youth Offenders Demonstration Grants                misuse and payment delinquency.
                        - MSHA’s Handling of Inspections of W.R. Grace
                        Mine in Libby, Montana


NASA                    Assessment of the Security of Wireless Networks       Our initiation of a series of installation reviews on wireless network security is a key example of our flexibility in
                        at a NASA Installation (multi-installation series;    quickly identifying important new Agency vulnerabilities, obtaining necessary training, planning a technical
                        currently underway)                                   approach, and quickly moving forward to conduct and report on our activities.

                        Assessment of a NASA Installation Network             Our team of Procurement Analysts has consistently made a positive impact on improving Agency acquisition
                        Firewall and Other Information Technology             practices and procedures through inspections involving timely and relevant procurement issues. Recent inspection
                        Security Measures (multi-installation series;         topics include Agency competition practices, quality assurance surveillance under Agency service contracts, and
                        several reports issued)                               the effectiveness of the Agency’s procurement management system. This team has also facilitated the office’s
                                                                              outreach initiatives during the past year by conducting procurement fraud awareness training at various NASA and
                        Management Alert – Review of Performance-             external forums including the IG Training Academy in Glynco, Georgia.
                        Based Service Contract Quality Assurance
                        Surveillance Plans

                        Review of Performance-Based Service Contract
                        Quality Assurance Surveillance Plans




Report on PCIE/ECIE I&E Survey 2003                                                       20                                                                                  February 2004
National                Inspection of HQS Facility Physical Security        Physical Security Posture – As a result of 9/11 and other world events
Reconnaissance Office   Posture
                                                                            NROC – Our first Inspection, many Commendables in report
                        Inspection of Cell Phones, Pagers, & Calling
                        Cards                                               Intelligence Oversight- Our first venture into IO inspections

                        Inspection of the NRO Operations Center (NROC)

                        Intelligence Oversight Inspection of Our Mission
                        Field Sites


Peace Corps             Preliminary Report on the Evaluation of the         Preliminary Report on the Evaluation of the Volunteer Delivery System — A cross-organizational review of
                        Volunteer Delivery System                           the system used for the selection, screening, and placement of Peace Corps volunteers. This evaluation facilitated
                                                                            the agency’s establishment of an Office of Compliance in the Office of the Director.
                        Russia: Audit, Evaluation and Safety and Security
                        Assessment

                        Follow-up of Romania Evaluation: Inspection,
                        Evaluation and Safety and Security Assessment


U.S. Postal Service     Efficiency of Work Performed at Bulk Mail           Efficiency of Work Performed at Bulk Mail Centers – The Postal Service has numerous bulk mail centers
                        Centers                                             located throughout the country. Instead of performing one big review, we are conducting a series of reviews with
                                                                            each review concentrating on bulk mail centers in a particular location. We have conducted three reviews to date
                        Postal Service’s Transformation Plan                and each has identified monetary benefits and the same findings.

                        Review of Contracts Associated With Biohazard       Postal Service’s Transformation Plan – The Postal Service issued a Transformation Plan in April 2002 which
                        Threat                                              discussed commitments and strategies to maintain its financial viability and fulfill its universal service mission.
                                                                            We issued a report that summarized all of the work the OIG has done and our recommendations related to
                        Peer Review of an Office of Inspector General       commitments and strategies in the Transformation Plan.

                                                                            Review of Contracts Associated With Biohazard Threat – The Postal Service responded to the October 2001
                                                                            emergency when anthrax was sent through the mail. At the time of our report, the Postal Service expected to
                                                                            receive $675 million in emergency funding from Congress. This review included contracts and delivery totaling
                                                                            $70.3 million that were awarded in response to the threat. The Postal Service used deviated purchasing
                                                                            procedures to award the contracts and delivery orders, and our review identified ways that the Postal Service
                                                                            could minimize its exposure to increased financial risk.


Small Business          Modernizing Human Resource Management               Our work resulted in corrections of misinformation on SBA’s public web site regarding small business
Administration                                                              opportunities.
                        Guaranty Purchase Survey of District Directors
                        and Loan Officers                                   We focused Agency attention on extreme delays in human resource initiatives that interfered with the Agency’s
                                                                            ability to address workforce transformation issues. This attention resulted in rapid revision and implementation of
                        SBA’s Experience with Defaulted Franchise           management initiatives intended to remedy workforce issues.
                        Loans
                                                                            In conjunction with the Audit Division, we surveyed Agency employees responsible for the critical loan process
                        SBA’s Federal and State Technology Partnership      in order to identify vulnerabilities and conditions leading to loss of Federal funds.
                        (FAST) Program




Report on PCIE/ECIE I&E Survey 2003                                                     21                                                                                February 2004
Department of State (1)   Inspection of U.S. Embassy Brasilia and             The review of non-immigrant visa issuance policy and processing in the wake of 9/11 provides a framework and
Inspections               Constituent Posts                                   specific actions the State Department needs to take to improve the visa process and reduce vulnerabilities to
                                                                              unlawful entry to the United States.
                          Inspection of the Bureau of African Affairs
                                                                              Our focus on the accountability of managers helps the Department assess its managers and the training needed to
                          Review of Domestic Passport Operations              develop better managers and leaders. The Department’s training institute agreed to meet regularly with our
                                                                              inspectors to discuss the strengths and weaknesses of managers reviewed during the course of inspections. A
                          Review of Non-Immigrant Visa Issuance Policy        deputy chief of mission and a charge d’affairs were removed from their posts by the Department in conjunction
                          and Procedures (memo report)                        with inspection work that highlighted their poor management abilities. Ambassadors at several embassies were
                                                                              counseled and coached to improve their management and leadership styles. The State Department values such
                          Compliance Follow-up Review of the Inspection of    assessments and increasingly calls on OIG to perform such reviews above and beyond those we conduct as part of
                          U.S. Embassy Abuja and Constituent Post             our normal inspectio n cycle.

                                                                              Inspection work at several embassies and consulates has highlighted inadequate planning for the construction of
                                                                              multi-million dollar new office buildings.

Department of State (2)   Security Oversight Inspection of Embassy Tokyo      Limited Security Oversight Inspection of Embassy Moscow — First evaluation following the move-in of the
S&IO                                                                          embassy to its new office building. This established a baseline of the embassy’s security systems and procedures.
                          Security Oversight Inspection of Embassy Moscow
                                                                              Security Oversight Inspection of Embassy Beijing — Comprehensive security review of the embassy and its
                          Security Oversight of China New Office              constituent posts.
                          Construction
                                                                              Security Oversight of China New Office Construction (Special Review) — Comprehensive review of the
                          Classified Annex to the Semiannual Report to the    security of the new office building construction.
                          Congress (Special Report) April 1-Sept. 30, 2002

Department of             Inspection of Controlled Substances Prescribed to   Review of the Department’s Controls and Security Precautions over Dangerous Biologicals, Chemicals, and
Veterans Affairs          Patients in VHA Mental Health and Behavioral        Radioactive Substances in VA Research and Diagnostic Facilities – We completed this comprehensive,
                          Sciences Programs                                   nationwide review in less than 3 months and continue following up to ensure the Department implements stringent
                                                                              controls and security measures over substances that can be potentially converted to weapons of mass destruction.
                          Evaluation of the Veterans Health
                          Administration’s Contract Community Nursing         We conducted aggressive follow-up of all VHA medical facility research and clinical laboratory areas to
                          Home Program                                        ensure implementation of the recommendations developed by the review. This was significant because of the
                                                                              serious national security implications of Department managers not aggressively implementing the
                          Combined Assessment Program Review of the           recommendations. The Deputy Secretary of Veterans Affairs personally requested this follow-up.
                          Chalmers P. Wylie VA Outpatient Clinic,
                          Columbus, Ohio                                      A Nationwide evaluation of the Veterans Health Administration’s (VHA) oversight of veterans’ treatment
                                                                              and safety in contract community nursing homes. Inadequate oversight and surveillance of VA patients have
                          Inspection of Infection Control and Patient Care    been problematic for more than 10 years, yet VHA managers had not established effective controls to ensure the
                          Issues, Harry S. Truman Veterans Hospital,          safety and well-being of elderly vulnerable patients. This program evaluation resulted in recommendations that
                          Columbia, Missouri                                  VHA managers supported and began to vigorously implement.




Report on PCIE/ECIE I&E Survey 2003                                                      22                                                                              February 2004
     PROMOTING ECONOMY, EFFICIENCY,

EFFECTIVENESS, AND INTEGRITY THROUGHOUT THE

           FEDERAL GOVERNMENT





     President's Council on Integrity and Efficiency
      Executive Council on Integrity and Efficiency

         Inspection and Evaluation Committee

                     www.ignet.gov
